>. 1

No'

n5
IN THE
SUPREME COURT OF THE UNITED STATES

PRISCILLA ANN ELLIS

FILED
FEB 2 7 2020

— PETITIONER

(Your Name)

OFFICE OF THE CLERK
SUPREME COURT. U.S.

VS.

UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

ELEVENTH CIRCUIT COURT OF APPEALS, ATLANTA, GEORGIA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

PRISCILLA ANN ELLIS
(Your Name)
FMC-CARSWELL- Admin Unit

P.O. Box 27137, Ft Worth, Texas 76127
(Address)
Ft Worth, Texas 76127
(City, State, Zip Code)

254-630-6885 Sister Sharon Callens Retired Army
254-289-7011 Daughter -Victoria Ellis College Student
(Phone Number)

/«

7

QUESTION(s) PRESENTED
1. Was Ellis Prejudicied when NONE of her concerns were considered
in her Initial Appeal 17-12737 ?
2. Was Ellis Prejudiced per 6th Amendment when Attorney fail to put on
a Defense?
3. Was Ellis prejudiced by Prosecutor Vouching for Ellis attorney
in front of Jury?
4. Did Ellis receive 5th Amendment violations when taken to trial
with same check templates in Both cases 8:15-cr-00320-SDM-TGW-3 and
8:16-cr-00502-JSM-TBM-1
5. Does Ellis have a BRADY Claim when Court failed to release
Trial and Faretta Transcripts?
6. Was Ellis prejudiced when duplicate information used at both
8:15-cr-00320-SDM-TGW-3 and 8:16-cr-00502-JSM-TBM-1 sentencings?
7. Was Ellis prejudiced when taken to Trial before an All WHITE
Jury not of her Peers?
8. Was Ellis violated being recorded unknown while still under Miranda
inside the County Jail?
9. Was Ellis prejudiced by receiving
for non violent crime?

and Excessive Life sentence

10. Upon , seeing comments from Judge in transcripts 8 ::15-cr-00320SDM-TGW-3 attached, was Ellis prejudiced by not receiving a Change of
Venue?
11. Was Ellis prejudicied by receiving exact same sentence ehancements
in both cases 8:15-cr-00320-SDM-TGW-3 and 8:16-cr-00502-JSM-TBM-1
12. Was Ellis wrongfully convicted for Interstates Commerce for
a Murder for Hire when no monies crossed state lines?
13. Evidenced by attached transcripts from FBI AGENT Gerjsten,
was Ellis prejudiced by false /perjured testimony used to indict?
14. Was Ellis 5th AMendment rights violated when the FBOP changed
and aggregated Ellis' final sentence?
15. Did Ellis
defense attorney prejudice her by not telling her
to testify and for not telling her the number of years the conviction
would carry?
16. Was Ellis prejudiced when she requested but did not receive a
Speedy Trial and Superseding indictemnt issued over 60 days later?
17. Is Ellis being prejudiced by the AUSA requesting that the FBOP
puther in a SuperMAX prison for the World's most Dangerous Criminals
with a White Collar crime and Clear conduct?

&

g

QUESTIONS) PRESENTED
1. Should the United States District COurt for the Middle Dist
of Florida have released the requested Faretta Hearing Transcripts
for Appeal purposes?
2. Should the Eleventh Circuit Appelas Court have Complelled the
M.D. of FLorida to release the Faretta Transcripts?
3. When there-: is a Brady Claim that is detrimental to the outcome
of the Appeal bit not considered, what says thou?
4•# When the Appeals Court does not consider your original Appeal
evidenced by Faretta Transcripts, what says thou?
5. Was Petitioner prejudiced by Faretta transcripts not being
released until after the appellate Court denied re-hearing?
6. Is Petitioner being prejudiced serving 2 consecutive sentences
simultaneously, based on misinterpretation of 18 USC 3584?
7. Was Petitioner prejudiced by Goverment with holding exculpatory
evidence?
8. Was Petitioner prejudiced by FBOP changing sentence 19 months
after FINAL Judgement to add a SAM?

%

LIST OF PARTIES

^x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

7

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Exhibit F Copy of Formal Complaint sent to the FBI

APPENDIX B
Exhibit I ? transcripts from interrogation of FBI Agent
Rolf Gersten whom falsified statements to get the Indictment
APPENDIX C Exhibit A- Transcript Excerpts of sentencing
prosecutor asking for enhancements and telling Judge how case affected
him and Exhibit D same prosecutor prejudice remarks not related to case
AppENQIX D Transcript that proves Judges prejudicial remarks
also using slanderous allegations from a case that has nothing to do
with his case that he was sentencing Ellis for. Exhibit B
APPENDIX E Unlawful SAM (Special Administrative Measures appended to
Ellis sentence unlawfully 19 months after final Judgement
APPENDIX F Letter to Justices of the US Supreme Court, Chief Justice
Roberts, Justice Gorsage and Justice Kavanaugh

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Strickland, ,466 U.S. at 700, 104 S. Ct
Acklen, 47 F. 3d at 742
United States v Segler, 37 F. 3d 1131, 1136 (5th Cir 1994)
Myers v. Johnson, 76 F. 3d 1330 (CA 5 1996)
McKaskle, 465 U.S at 178, 104 S. Ct at 951
Page v. United States, 884 F.2d 300, 302 ( 7th Cir 1989)
Myers v. Collins, 8 F.3d
249 (CA 5 1993)
U.S v. Bradley, 628 F.3d
394 (CA 7 2010)
United States v. England
555 F. 3d 616, 622 (7th Cir 2009)
United States v. Cronic,
466 U.S. 648, 104S Ct 2039,
80 L. Ed.2d 657 (1984)
Neder, 527 U.S. at 7, 119 S Ct 1827
Hillery 474 U.S. at 262, 106 S. Ct 617
Strauder v. West Virginia 100 U.S. 303, 25 L. Ed 664 (1879)
Neal v. Delaware, 103 U.S. 370, 26 L. Ed, 567 (1880)
Norris v. Alabama 294 U.S. 587, 55 S Ct 579, 79 L. Ed 1074 (1934)
Patton v. Mississippi 332 U.S 463, 68 S Ct 184, 92 L. Ed 76 (1947)
Hernandez v. Texas 347, U.S 475 74 S. Ct 667, 98 L. Ed 866 (1954)
Batson v. Kentucky 476 U.S. 79, 106 S. Ct 1712 90 L. Ed 2d 69 (1986)
F^YllSr-F^tT^45 U,Sc P1’ 125 S: Ct 2317, 162 L. Ed. 2d 196
g-|-^-py-|-£g ^|\|q RULES
^th & 11th Circuit Chamberlain v Fisher (2018)
14th Amendment of the United States Constitution
6th Amendment of the United States Constitution
1st Amendment of the United States Constitution
5th AMendment of the United States Constitution
8th Amendment of the United States Constitution
18 U.S.C 3582
Rule 801 (d)(2)(E) for abuse of discretion

Foster

OTHER

Foster v. Chatman, 136 S Ct 1737, 195 L. Ed. 2d 1 (2016)
Snyder ^Louisiana, 552 U.S. 472, 128 S. Ct 1203, 170 L. Ed.2d 175 (2008)
Strickland v. Washington, 466 U.S. 668, 683, 104 S Ct. 2052, 80 L. Ed.2d
674 (1984)
McMann v. Richardson 397 U.S, 759, 771 n. 14, 90 S Ct 1441, 25 L. Ed.2d(1970)
Massaro v. United States, 538 U.S. 500,, 504, 123 S. Ct 1690, 155 L. Ed 2d (2003)
Ande^soVV “nV, W f/ 3d *¥*
*94(1966)
//

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
15c

Brady Claim
Brady v. U.S. 373 U.S. 83, 83 S. Ct 1194, 10 L.ED 2d 215
Federal Ru. Crim P 16, 26.2

15c

15, 15c
Myers v. Johnson 76 F. 3d 1330 ( CA 5 1996)
North Carolina v. Pearce, 395 US 711, 23 L. Ed 656, 89 S. Ct
15b
Giglio v. United States (1972) 405 US 150, 31 L. Ed 2d 104
15c
92 S. Ct 763
United States v. Olano, 507 U.S. 725, 113 S. Ct 1770, 123 L. Ed
16
2d 508 (1993(
Molina-Martinez, 578 U.S. at
(slip op. at4-5)
16
United States v. Dominguez Benitez, 542 U.S. 74, 76, 82
16
124 S. Ct 2333, 159 L. Ed 2d 157 (2004)
Mooney v. Holohan (1935) 294 US 103, 79 L. Ed 791, 55 S Ct 340
16
98 ALR 406

STATUTES AND RULES
FRCP 52(b)
FRCP Crim P 16, 26.2

15c

OTHER

tl

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
JXT is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

/A

JURISDICTION
The United States Supreme Court has Jurisdiction to issue a Writ
of Certiorari in the Instant Case because under 28 USC 2101e
petitioncwas; f iled'^within 90 days of the lower court decision.
(1) United States Court of Appeals for the Eleventh Circuit
has entered a decision in conflict with the decisions of another
United States Court of Appeals on the same important matter, and
has decided an important federal question in a way that conflicts
with prior decisions, and has departed from the accepted and
usual course of Judicioal proceedings, with such a departure
by a lower court to call for an exercise of the US Supreme Court's
supervisory power.
Seventy Years ago, the Supreme Court established that the sentences
imposed by the sentencing Judge is controlling... Hill v. United
States ex rel. Wampler, 298 U.S. 46, 56 S. Ct 760, 80 L. Ed 1283 (1936)
The Supreme COurt states that sentence information needs to be
accurate and not alleged see Townsend v. Burke, 334 U.S. 736, 68
S. Ct 1252, 92 L. Ed 1690 (1948)
Collins v. Buckhoe, 493 F. 2d 343, 345 ( 6th Cir , 1974)
The United States Supreme Court holds jurisdiction over cases that
have Multiple Constitutional violations
Ellis have 1st, 5th, 8th, 8th, 13th and 14th Amendment Violations
of the United States Constitution
incl^e^^hev&t-h/Amendment.
The Fifth Circuit has maintained in Myers V. Johnson that a
Pro-Se' Petitioner shall maintain control of a Final Appeal, the
Eleventh Circuit Court of Appeals denied Ellis this precedent,
and did not consider Ellis, Priscilla's final Appeal at all.
The Supreme Court stated in North Carolina v. Pearce that a
person shall not be held to answer for the same crime as convicted
of before or to be punished again for the same crime of conviction.
Ellis was taken to trial twice for the same check templates
and punished 3 times for case 8:16-cr-00502-JSM-TBM-l as evidenced
by attached sentencing transcripts and SAM write up with alleged
events that Ellis was NOT convicted nor indicted for.
For the above reasons, the Supreme Court of the United States
has JURISDICTION to issue a Writ of Certiorari and maintain
curent Jurisdiction over this instant Case.

c JURISDICTION T7
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 9'-'0&tober 2Q19

<?*■
[ ] No petition for rehearing was timely filed in my case.
J>^f A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: __f) fc-b
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

/3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1st Amendment
5th Amendment- Double Jeopardy
14th Amendment Due Process
8th Amendment- Cruel and Unusual /Harsh Punishment
6th Amendment - Right to Counsel'-and effective counsel
18 U.S.c 3582
18 U.S.C. 3553 (a)(2)
18 U.S.C. 3553(a)
18 U.S.C. 3551(a)
Federal Rule of Criminal Procedure 52 (b)

STATEMENT OF THE CASE
Ellis was entrapped for

Retaliating against witnesses, and uttering

a counterfeit document while sittign in the County jail awaiting
sentencing on another case in which Ellis was convicted as a victim.
Ellis was still under Miranda when the Under cover informants hired
by the government to get time off of their sentence was enticing and
recording Ellis.

Ellis' attorney did not motion the court to suppress

the recordings, nor did he request an expert witness to authenticate
the recordings to know if they are Ellis.

The investigator played

a recordihgg for Ellis at the jail;;that owuld have cleared Ellis of
the retaliating against witness ( murder for hire ) but Ellis attorney
did not play the recording at the trial nor call any witnesses.
Prosecutor for the government used infromation from:the first

The
trial

that had absolutely nothing to do with the 2nd case in order to request
an enhanced sentence for a leading role and also used the same infor­
mation falsely at sentencing that the prosecutor used in my first
sentencing case that Ellis had tried to kill a 9 year old girl,

Ellis

was sincerely prejudiced by this as Ellis was not indicted, nor
convicted of this and event he Judge was using this verbage ( see attahced
sentencing transcripts).

Ellis as a black woman requested a Jury of her

peers, but htere was only 1 black woman on the entire Jury,
a Jury of Ellis' peers,

This was not

The prosecutor in Open court was testifying

on how great Ellis atttorney was before the Jury, this also prejudiced
Ellis.

The Attorney Bjorn Brunvand, (Ellis' attorney) was ineffective

for not investigating or calling any witnesses for the defense, he
relied solely on the under cover informant's husband tellign him that
he would testify for the defense, but never showed up, although lots
of witnesses were provided to the attorney and was told to Ellis that
the under cover informant was bragging about setting Ellis up to get time

3

1 ii

STATEMENT OF THE CASE CONTINUED
off of her sentence.

Ellis was not allowed a re-hearing by the 11th

Circuit court as they said that it was untimely , although Ellis put
the Motion in the Prison mail system in a timely manner according to
FRAP 25 of the Eleventh Circuit COurt of Appeals and Rule 40-3 concerning
extensions.

The Eleventh Circuit COurt of Appeals took none of Ellis

concerns of her initial Appeal 17-1237 HH into consideration when
rendering their affirmation, but only the concerns in the added on
Appeal of my standby attorney Angela Wright as Judge Mccoun dismissed
my Trial attorney Bjorn Brunvand when I went ont he record at court
at a Faretta hearing after the trial claiming ineffective assistance
of Counsel.

Ellis should have been allowed as a Pro-Se litiagnt to

remain in control of her brief and the concerns should have been
decided upon instead of being ignored blatantly by the Panel of Judges.
This denied Ellis Due Process under the 14th Amendments of the United
States Constitution. I served my Country Honorably as a soldier in the
United States Army and am an honorably discharged Veteran,

I want the

same rights afforded to me that I served to protect under the U.S.
Constitution.

The government used the under cover informant to set up

Ellis because Ellis told the Judge that he could not go into the Jury
Deliberation room while the Jury was deliberating that he had tainted the
Jury.

19 Months into my sentencing, the Prosecutor for the Middle

District of FLorida requested ( With Clear conduct) that the Federal
Bureau of Prisons modify/Alter my final sentence by adding a restrictive
SAM Agent/Order.

This is a double Jeopardy sentence, as tehy did not
I

offer me an attorney or again provide me with Due Process,

Again Ellis

was prejudiced and Judge Merryday made it evident on the sentencing
transcripts that the Middle District of FLorida could do what they
wanted as his comments state that his friends at the Eleventh Circuit
2

it*

STATEMENT OF THE CASE CONTINUED
Would not provide Priscilla A Ellis with any relief, see attached
transcript copies.

Also see attached file satmped copy to the

11th Circuit Court of Appeals requesting for the re-hearing in
a timely manner per FRAP 25.

I sent to the District Court from

the Prison's mail system the request for re-hearing on the same
date that I received the Affirmation dated 9 October, which
was received on 10-24-2019 and immediately sent out on 10-24-2019
per Ellis restrictive mail forwarding per the unlawfully applied
SAM Order issued 19 months into Ellis sentence by the Middle
District of Florida AUSA Patrick Scruggs.

This again outlines

the fact that the 11th Circuit Court of Appeals errored in not
allowing Ellis a re-hearing to consider her initial

appeal

complaints/concerns in 17-1237-HH and they only considered those
concerns of Ellis

standby attorney Angel Wright 18-10075

Please remand this instant case back before the District Court
in the Middle District of FLorida for a New trial and or
evidentiary hearing for reasons outlined through the Motion as
well as;
Ineffective Assistance of Counsel
11th Circuit Court of Appeals error in not taking Ellis' initial
Appeal concerns into consideration on 9 October 2019 as evident
from the decision outline for D.C doc #85 , 11th Cir Appeal 17-1237
Ellis was till under Miranda inside County Jail when the Under
cover informant was makign the recordings
Attorney was ineffective for nto requesting to suppress the
recordings while Ellis was under Miranda
Composition of the Jury, there was only 1 black person on the
entire Jury, although Ellis as a Black woman asked for a Jury of
her Peers
Ellis was prejudiced by attorney not putting on a defense and calling
witnesses especiall the two main withnesses that could have cleared
Ellis, Victoria and Amber Martin ( Out of Houston, Texas)
3
I

Errors by Counsel actually had an adverse effect on the defense, see
Anderson v. Collins, 18 F. 3d 1208, 1215 (5th Cir 1994)

Counsel did

not provide reasonably effective assistance under prevailing profess­
ional norms as a seasoned attorney, see Strickland v. Washington
466 U.S. 668 and United states v Ackenlen, 47 F. 3d 739 (5th and 11th
Cir 1995)

.

The 11th Circuit Court of Appeals errored when not

allowing Ellis a re-hearing based upon them not considering any of
Ellis concerns from her original Appeal 17-1237 , In Myers v. Johnson
76 F. 3d 1330 (CA 5 1996) states that a Pro-se brief on the first direct
appeal must be allowed to preserve actual control over the case and
must be allowed to determine the content of his appeallate brief, well
according to the Affirmation decision , the 11th Circuit COurt of Appeals
errored in not allowing Elis to do so .
104 S. Ct at 951.

See McKaskle, 465 U.S. at 178

If standby Counsel substantially interferes as

with a Pro-se appellant's presentation

brief as

Atty Wright did not

even contact Ellis prior to submitting an additional Appellant brief
nor have Ellis permission to submit an additional brief, and did not
send Ellis transcripts for her Trial or sentencing until 11-20-2019,
almost 2 years after trial and after the Panel hearing at the 11th
Circuit.

Attorney prejudiced Elis by not investigating or putting

on defense, raised Strickland

and Cronic as well as see Nelson v

Hargett, 989 F. 2d 847 ( CA5 1993) also see United States v Green, 882
F. 2d 99, 1003 (5th Cir 1989).

There is Prosecutorial Misconduct

which prejudiced Ellis when the Prosecutor was testifying in Open
Court on how great of a persont hat Ellis' Attorney is, and by them
not providing the recording in court to prove Ellis innocence ( a
recording between Ellis and Martin that the Investigator let Ellis hear)
see Carter v Bigalow, 787 F. 3d 1269

(CA 10 2015).

See Youngblood .

v. W Virginia, 547 U.S. 867, 165 L. Ed 2d 269, 126 S. Ct 2188 (2006)
This activates a Brady Claim as well.

The Standby Counsel failed to
4

raise a miranda claim in her un solicited Appeal which leads also
to ineffective assistance of Counsel as Ellis never left the
Pinellas County Jail.
See Matrire v. Wainwright, 811 F. 2d 1430 ( CA 11 1987)

this

violated ELlis due process rights as well as when the Middle District
of FLorida comes along 19 months into Ellis Final sentence and request
that the Federal Bureau of Prisons request a sentence restrictive
enhancement of a Special Administrative Measure Agents without offering
Ellis counsel as this was modifying Ellis final sentence judgement
and a violation of Ellis 14th Amendment Due Process rights, see
Doyle v. Ohio, 426 U.S. 610, 96 S. Ct 2240, 49 L. Ed 2d 91 (1976)
and also when defense Counsel Bjorn Brunvand did not ask Ellis to
testify in court nor did he tell Ellis how much time that this case
carried anytime before during or after trial. Ellis only found out
the day of sentencing what she would be facing. Again also Strickland
comes into area of ineffective assistance of Counsel and for Defendant
now inmate Ellis not know that the case carried a sentence of 85 years
and was taking the rest of her life for an entrapped crime that she
had no desire to commit other then for the enticement of the under
cover informants and that was for a money crime, not for a murder for
hire and the recording between Ellis and Martin would have proved such
also had the Attorney subpoena'd witnesses Victoria Ellis and Amber
Martin (whom Ellis was introduced to by the Under cover Agent Stillwell)
would have also cleared Ellis of Witness retaliation,

A Due Process

violation occured also when Ellis did not receive her transcripts until
11/20/2019, after the decision of the Panel judges at the 11th Circuit
court of Appeals. Strickland , 104 S Ct 2052
Enhancement given using

under cover informant s friend that she

introduced Ellis to, and Odus Omotola whom was in the first case and
had absolutely nothign to do with this
canse, nor was their evidence to
5

t

v'

prove such prejudiced Ellis, see U. S v. Slade, 631 F. 3d 185 (CA4 2011)
Ellis did not supervise anyone and was entrapped for a crime and there
was

not evidence to.prove 5 people or. that Ellis was in a Managerial

role as the entrapment started with Ebony Stillwell, NOT Ellis, and had

'i

the prosecution or defense counsel subpoena'd Martin and Victoria
Ellis, the truth would have prevailed in

court in the Open before the

Jury., also Bartley, 230 F. 3d at 673^74 and United States v Llamas, 599
F. 3d 383, 389-90 (4th Cir 2010)

Ellis sentence should have been

concurrent and not consecutive as they wer eint he same Court and
sentenced less then

months apart,.Apprendi v. New Jersey, 530 U.S

466 and Blakely v. Washington, 542 U.S. 296
Judge's reliance on the OdUs Omotola information instead of asking
for prosecutor to provide actual evidence violated: Due Process see
Stewart v. Erwin, 503 F. 3d 488 (CA 6 2007), Collins v Buckhoe, 493 F
. 2d 343, 345 (6th Cir 1974)
when the Middle District

Ellis' 14th AMendment rights were violated

Florida requested 19 months into Ellis'

sentence for the Federal Bureau of Prisons to add a SAM enhancement
to her sentence without bringing her back before hte Judge with CLEAR
conduct and without counsel see Hill v

United States ex rel.Wampler,

298 U.S. 460, 56 S Ct 760, 80 L. Ed. 1283 (1936)

The Supreme Court

has held that no one has the authority to change a sentence other then
the Court. ID at 464, 56 S. Ct 760

A defendant has a Due_Process

right that information that is being used to sentence Ellis is
accurate and correct ..see United

States v. Pulley, 601 F. 3d 660, 665

(7th Cir 2010) as in when the Prosecution testified to get Ellis a
sentence enhancement that Ellis tried to kill a 9 year old girl, Ellis
was not i ndicted, tried or convicted for such and Prosecutor should
have not been allowed to use this verbage at sentencing see United
States v England, 555 F. 3d 616,622 (7th Cir 2009)
6
l\

5

the hired under cover informant inmate wore the wire tap.

Everything

on the wire tap should have been inadmissable and suppressed because
Ellis, Priscilla was still under Miranda rights.
v. Arizona ( 1966) .

Again see Miranda

Ellis' attorney prejudiced Ellis further by

not requesting that the wire taps be suppressed or authenticated by
a professional voice expert to identify if it was Priscilla Ellis'
voice on the tapes because for sure there is absolutely no tapes
with Ellis saying I want you to go and murder soemone for payment
absolutely not.

Ellis' attorney should have also made Ellis aware

that this crime carried the punishment penalties that it did for a
Life sentence also.

This

prejudiced Ellis also because Ellis

would have been more boisterous and adamant about certain aspects
of her defense.

8

s

STATEMENT OF THE CASE
Holding exculpatory evidence that could have made s difference in their
opinion of the Appellate court panel judges prejudiced Priscilla Ellis.
Ellis, apparent

and evidenced by the court docket in the middle Dist

of Florida displays that the rquest for the Faretta Hearing Transcripts
have been ongoing since 2018, although Ellis did not receive the
transcripts or the attached memorandum from the court detailing that
Ellis is on the record stating her claim of ineffective assistance
of Counsel until March 2020, after the Eleventh Circuit court of
Appeals affirmed Priscilla Ellis

conviction without even taking her

initial appeal into consideration which under Myers v. Johnson, 76 F.
3d 1330 (CA5 1996) should have taken precedent over that of her standby
attorney's whom submitted an appeal after Priscilla Ellis
not seen nor approved to be submitted by Priscilla Ellis,

that was
Atty Wright

ineffectively sent Priscilla Ellis a copy of the submitted appeal
AFTER she had filed it with the Appellate Court and again with out
Ellis' knowledge or approval of the content submitted by Atty Wright.
Ellis' initial appeal at the Eleventh.Circuit Court of Appeals 17-12737
was totally ignored and not opinionated by the Panel judges at all
which again prejudiced Ellis, and had they considered the initial
Appeal and had the Faretta hearing Transcript, Memorandum and comment
from the Faretta hearing Judge that Ellis was concerned about the
Defense and performance of her Court appointed attorney that the Judge
terminated as evident from attached Order from Judge McCoun III, am
quite certain that the outcome would

have and quite possibly a different

outcome then the affirmation of an already prejudiced proceeding.
Instead of taking Priscilla Ellis' initial Appeal 17-12737 into
9

consideration, the Panel Judges instead opinionated on the 2nd
Appeal sent in by the standby attorney 18‘-10075 .

This also prejudiced

the outcome of the Appeal where the standby attorney also was made
aware of the ineffective assisatnce of Counsel and the evidence that
was not presented at trial by the defense nor the prosecution.
A Double Brady Claim.

This is unethical and against all fairness

and impartiality that the U.S. Supreme Court and the US Constitution
stands for.

Had the attorney called witnesses or put on a defense

as Priscilla Ellis outlined to the Judge during the Faretta hearing
(Judge Thomas B. McCoun III) the outcome would have been a totally
different , and am certain that Justice would have been properly
served and the Jury ( Not of Ellis' Peers) would have returned a
verdict of not guilty had witnesses been called and the government
or defense played the telephone recording between Priscilla Ellis
and Amber Martin ( under cover informant) out of Houston, Texas
which outlined that Ellis was merely giving Martin monies for delivering
Ellis' percentage of the monies from Martin's and Awaye's transaction
to Ellis' daughter in San Marcos, Texas, nothing more,

The recording

exist because the investigator for the Defense let Ellis hear the
telephone recording.

That coupled with the government not releasing

the Faretta hearing transcripts where Ellis was on the record
expressing her concerns tot he Judge, alloted for the miscarriage of
Justice that Ellis is experiencing,

The middle District of Florida

should have automatically called an evidentiary hearing to further
explore Ms Ellis

claims at the Faretta hearing, but they did NOT,

instead the Judge McCoun III terminated Atty Bjorn Brunvand as
evident from the atttached memorandum from Judge McCoun III 's
court Clerk, only for the prejudice District Judge to re-instate

a

10

Atty Brunvand without Ellis consent, forcing Ellis to keep an
ineffective attorney that was not looking out for the best interest
of his client nor hiding the fact that he had no intention to
assist in properly defending the case at trial or pre-investigations,
and divulging evidence that would clear Ellis at trial.
There is NEVER a mention of Ellis telling Martin that she was paying
for harm to come to anyone, yet just like the with holding of the
Faretta Transcripts detailing Ellis concerns of her ineffective
assistance of Counsel, the government and defense both with held
the telephone tapes that could have also made a difference to the
Jury and the outcome at trial.

Had the tapes been played and the

panel Judges having the Faretta hearing transcripts at the Appellate
proceedings, the outcome would have been different.
This denied Priscilla Ellis Due Process under the 14th Amendment of
the US Constitution as well as 6th Amendment of having an Effective
assistance of Counsel and an impartial trial before an impartial
Jury of Ellis

Peers, as well as 5th Amendment when the Judge allowed

the AUSA to take Ellis to trial for Uttering a counterfeit document
using the EXACT same templates at trial that Ellis had already been
taken to trial for in case 8:15-cr-00320-SDM-TGW-3.

This is Double

Jeopardy, as the 5th Amendment of the US Constitution protects from
second prosecutions for same offense after conviction and protections
against multiple punishments for the same offense as the case as
is currently happening when the AUSA for the Middle district of
Florida requested the Federal Bureau of Prisons to add a Special
Administrative Measure to Ellis' sentence 19 months into final
sentence commencing.

North Carolina v. Pearce, 395 US 711, 23 L. Ed

656, 89 S. Ct.
11
/^

The Court finally released the attached partial transcript/
memorandum notes from the Clerk after the Final appeal at the 11th
Circuit court of appeals had been affirmed again prejudicing
Ellis and the outcome of the decision of the Panel judges,

Had

this information been included along with the original Appeal docket
#85 in case number 8:16-cr-00502-JSM-TBM-l in the Middle District
of Florida, am again quite certian that the outcome would have been
entirely different based upon Brady v. U.S. 373 U.S. 83, 83 S Ct.
1194, 10 L. Ed 2d 215, see Fed R. Crim P 16, 26.2 and also see
Myers v. Johnson 76 F. 3d 1330 (CA 5 1996) In which writ was
granted because of the same Circumstances and issues surrounding
Ellis' case.

Ellis also have a Giglio claim .

12

13

As you can see from the Statement of facts of the case, Petitioner
has been highly prehudiced and have many Constitutional Violations
to include 1st, 5th, 6th, 8th adn 14th Amendments of the United States
Constitution.
Petitioner has enclosed the FBI Gjertsen 's Statement under Oath
being cross examined by Attorney Brunvand and admitting that there
is no recording of Petitioner telling her daughter Victoria Ellis
to pay for a Murder for hire ( see Exhibit I) this clearly validates
that they entrapped Petitioner for witness retaliation because the
Petitioner was ferociously advocating for her freedom and innicent
as a victim in case 8:15-cr-00320-SDM-TGW-3.
Also validates that Petitioner received a Double Jeopardy sentence
see transcripts attached from case 8:15-cr-00320-SDM-TGW-3 where
Judge Steven D. Merryday alleges thing in case 8:16-cr-00502-JSM
-TBM-1 in his sentencing showing that he was clearly entencing
petitioner for the instant case (see Exhibit A) and the fact that
the judge using
words like "short of the death penalty" and "You
will not be allowed to talk to your adult daughters", and the fact
that he was bragging that his colleagues at the Eleventh Circuit
COurt would undoubtedly see petitioner's Appeal for relief but would
not grant it. (see Exhibit B) Petitioner was in front of this judge
for sentencing for a conspiracy to commit money laundering case so
again his restriction and words clearly validates that Judge Steven
D. Merryday had lready sentenced Petitioner for case 8:15-cr-00502
-JSM-TBM-1 prior to being sentenced by the actual judge in this case.
See (Exhibit D) the sentencing transcript from case 8:16-cr-00502JSM-TBM-1 and you will see that Petitioner was again sentenced for the
case 8:16-cr-00502-JSM-TBM-1 causing a double jeaopardy sentence and
also see the exact same verbage used that petitioner tried to kill
a 9 year old. This is false allegations and according to 18 USC
3553 a sentence is supposed to be based upin facts and not allegations
and also see that the exact same enhancements were given in both
sentencing 8 :.15-cr-00320- and 8 :16-cr-00502-JSM-TBM-l causing
Petitioner to receive a Double Jeopardy sentence and Double Jeopardy
sentencing enhancements violating the 5th Amendemnt of the United
States Constitution.
None of Petitioner's concerns in her initial Appeal were taken into
consideration which is evident from the Opnion issued in the
Opinion affrimation issued 10-9-2019. In Myers v. Johnson, 5th Circuit
1996, the Judges decided that no one has the right to interfere
with a Pro-se Appeal and it shoudl take precedent over any Appeal
esepcially when it was submitted first prior to standby attorneys
that was not approved by petitioner ( see Original Appeal issued
by petitioner, Exhibit J ) Also in Exhibit J is the documents to
show the original charge sin the indictment and the charges that
were issued 117 days later in a superseding indictment violating
THe Speedy Trial Ac 18 USC 3161 and US v. Palomba, and 18 USC 3553
case law and factors pertaining tp pettioner. See Exhibit K as it
is the Tran cripts and Memorandum fromt he Judge pertaining to
Petitioner's Fareatta hearing to show that Petitioner was a Pro-se'
and is a Pro-Se' litigant and again hould have been in charge of
aseconcefSsSan&ainj5sticelfd elaborated in her initial Appeal
13

Petitioner served The United STates of America Honorably as a United
States Army proud soldier to protect the same laws under the United
States Constitution that are being denied to her. No Person in
the.World.» So especially the United STates of America should not
be intentionally violated the way that petitiner has been violated.
(See exhibit L) . this shows that Petitoner was again violated by
The Prosecutor m the Middle District of FLorida 19 months after
the final sentence requesting the Federal Bureau of Prison" to
add a very restrictive SAM ( Special Administrative Measure)
violating Apprendi and Hill v. Wampler and Archer v. Boyd stating
that anything that is on the back of a Final Judgement is NULL and
void on it's face and petitioner is requesting that the US Supreme
Court justices not only relay this to the Federal BUreau of Prisons
and the Middle District of Florida but to also have them under
Wolf v. Mcdonald and Sanlin . Connor remover Petitioner from the
SuperMax prison designated for the World's most dangerous prison
back to the regular compound so that Prisoner can have exercise
to her first AMendment liberties that is not being afforded to
petitioner while the US Supreme court evaluates Petitioner case
for
vacating
the sentence.
,
,
,,
THe Computation sheets in Exhibit L
shows the Double Jeopardy sentence that is being served by the
petitioner. THey have aggregated Petitioner's current sentence
and the consecutive sentence that does not start for another 36
years if Petitioner's relief is not granted. Becasue the sentences
were imposed at separate times they do not rely upon 18 USC 3584
also in ide Exhibit L are Program review sheets, and evidence that
the Prosecutor in the Middle District of FLorida requested the
unlawfully attached SAM ( SPecial administrative Measure 19 months
. judgement modifying the Final Judgement which makes
it Null and void, and the Warden's 409 transfer form to show that
the Petitioenr.is low security so no reason to be in a SuperMAX
prison. ( Exhibit F) shows that Petitioner sent a Formal Complaint
to the Attorney General and Inspector General to not receive a
response.
?ee ^^-j-hit G to show that Petitioner did not deserve enhancements
for theilign daughters to tell the truth and Exhibit C to verify
that the MD of Fllorida never had Jurisdiction as Petitioner's home
and.Businesses since 1994 were in the Bell County, Texas and the
Articlee III of the United States constitution states that the VENUE
must be in the State that the crime started and ended and that the
Venue cannot be determined by the Judge haveing the Venue put on
the Jury Verdict slip or by the Prosecutor stating that the
continuance of a conspiracy that the petitioner had no knowledge
of being committed in a STATE of Florida where she had NEVER been
nor sent any mail nor received and money nor sent any to Florida
See
Exhibit
M the PSR from the Western District of Court as correct
.
____
_______
jj^mation and not the falsified PSR that was completed by the
Middle District of Florida in 2016. The PSR from the Western District
of Texas, Petitioner's home state completed in 2001 is like night
and day from the Disparaging PSR completed by the MD of Florida.
Petitiner has NEVER in her life used or entertained to use ANY DRUGS.
Also inside Exhibit M is proof of Honorable Veterans Status for
Exhibit N is letter that petitioner had previously
to Chief Justices, but would liek to make it a part of Appeal. sent
14

REASON THAT A WRIT SHOULD BE ISSUED
A Writ of Certiorari should issue because a lower court has decided
an important question in a way that conflicts with prior decisions
and has departed from the accepted and ususal course of Judicial
proceedings.
Olano states that the error should be corrected if it affects
subtstantial rights in which it does. The United States Supreme
Court decision in Olano, 507 U.S. at 725 says an error is not clear
or obvious if it is subject to reasonable dispute.
In Puckett v. United States, 556 U.S. 129, 135, 129 S. Ct 1423. 173
L. Ed. 2d 266 (2009) and again the error must affect defendant's
substantial rights "Molina-Martinez v. United States, 136 S. Ct 1338,
1343, 194 L. Ed. 2d 444 (2016) In which it is and has and is causing
Ellis Priscilla to -serve a Double Jeopardy sentence and a concurrent
sentece that Ellis is not receiving Concurrent credits for when
the Federal Bureau of Prisons aggregated her sentences without
going back before the Judge. Ellis' setneces are Consecutive,
NOT Concurrent.
1. Ellis, Priscilla's Initial Appeal as a Pro-Se' litigant was filed
5 June 2017 ( 17-12737 ) and should have been donsidered by the
Eleventh Circuit court of Appeals. The appointed attorney filed
an Appeal separate of Ellis without Ellis approval or even seeing the
appeal prior to her submitting it to the court. (18-10075) . This
Appeal had none of Ellis original concerns within the Appeal
and again was not approved by Ellis.
According tot he Fifth Circuit court of Appeals in Myers v. Johnson
76 F. 3d 1330 ( CA 5 1996) Ellis Appeal in case 17-12737 should
have remained the controlling appeal, and that no one hsoudl intefere
with what a Pro-se' litigant put into their final appeal.
As you see from the written opinion affirmation rendered on 9 Oct 2019,
absolutely NONE of Elli's concerns were taken into consideration
nor ruled upon, and denied Ellis' re-hearing without reasoning or
again elaborating on the final concerns in doc # 85 Appeal 17-12737
field by Priscilla Ellis in a timely manner after the trial.
2. The right to offer testimony of witnesses and to compel their
attendance is a fundamental element of Due Process. Washington v.
State of Texas 388 U.S. 14. This right was denied to Ellis when
despite giving her professional Trial attorney plenty of winess
names and witness statements, Ellis' attorney called no witnesses,
nor put on a defense, but stated that he was goign to rely on the
spouse of the under cover inmate informant that entrapped Ellis to
come to testify, but he never showed up to the trial. Had the
Defense attorney called Ellis' Daughter Victoria who the case was
centered around or played the recording in open court that
proved what Ellis' daughter was giving Martin money back for bringing
Ellis' commission to pay for Victoria Ellis' %past due college tuition
then the outcome of the trial could have been different. As you see
an enclosed witness statement attached to the initial Appeal doc #85
is just oen of many that was provided to the defense attorney months

Page 1

prior to the trial. The least that the defense attorney could and
should have done was to subpoena Ellis' daughter Victoria Ellis and
Amber Martin,,which he did not. Both would have attested to Ellis'
innocense of a Witness retaliation or Murder for hire scheme. The
prosecutions allegations were all that the Jury had to rely upon
along with the perjured testimony of the hired inmate informants.
Due Process clause forbids convicting a person without proving
the elements of the crime beyond a reasonable Doubt. Bunkley
v. Florida, 538 U.S. 835, 155, L. Ed 2d 1046, 123 S. Ct 2020 (2003)
3. Ellis was prejudiced before the Jury ( Not of her peers) when
the Prosecuting Attorney AUSA Eric Gerard stood in Open court vouching
on how great of an attorney that Ellis' defense atttorney was and
that it was no reflection on his client " but he is a good person and
good lawyer". Basically tellign the Jury that the attorney's client
was bad ’. but he was good. Ellis' defense attorney, nor the Trial
Judge said anything. There was absolutely no instruction given for
the Jury to disregard the comments / improper remarks. see United
states v. Melendez, 57 F. 3d 238, 242 ( 2d Cir 1995)
Attorney failure to say something does not end Judicial inquire into
the severity & prejudice of prosecutor's conduct. See United States
v. Friedman, 909 F. 2d @ 710 ( observing that claims of prosecutorial
misconduct must be carefully assessed as to each individual circum­
stances. This same Prosecutor used false allegations at Ellis'
sentencign as well and is verifiable by enclosed sentencing
transcript excerpts. The defense attorney should have requested
the Jury instruction for the Jury to ignore or for a mis-trial
see Melendez 57 F. 3d at 243. The Government's error violated a
specific constitutional guarantee.
The Sixth amendment affords a defendant the right to a meaningful
opportunity to present a complete defense . "Crane v. Kentucky, 476
U.S. 683, 690 106 S. Ct 2142, 90 L. Ed 2d 636 (1986)
Prosecutorial conduct is not suppose to infringe upon a defendant's
substantial rights... Donnell v. DeChristoforo, 416 U.S. 637, 643, 94
S. Ct 1868, 40 L. Ed. 2d 431 (1974). AUSA Gerard violated Ellis'
6th Amendemnt right to have an Impartial Proceeding before an
Impartial Jury of Ellis Peers.
There was not a Jury of Ellis Peers. There was one half breed
young black lady on the Jury. Ellis is an older professional
black lady , ex Army, honorable Military Veteran,
Ellis should
have been afforded an impartial Jury of her Peers.
4. Ellsi was taken to trial twice using the exact same check
Templates that were the product of an Independent Contractor that
were in the Vickentraders@Aol.com email. The Fifth Amendment
guarantee against Double Jeopardy which is enforceable through the
Fourteenth Amendment and consists of three separate constitutional
protections: 1. protection against second prosecution for same
offense after conviction
( The checks were the same that Ellis had
been taken to trial for in case 8:15-cr-00320-SDM-TGW-3.
2. Protection against second prosecution for same offense after
conviction ( Again Ellis was prosecuted a 2nd time for the exact
same check templates in case 8:15-cr-00320-SDM-TGW-3

Page 2

3. Protection against multiple punishments for same offense....
Ellis has been sentenced for this instant case 3 (three times)
see atatched sentencing transcripts for both cases 8:15-cr-00320SDM-TGW-3 and 8:16-cr-00502-JSM-TBM-1 and the false write up for
the SAM ( Special Administrative Measure) that was issued 19 months
after FINAL sentence was commenced. Violating Due Process and
Double Jeopardy 5th and 14th Amendments of THe United States
Constitution. see North Carolina v. Pearce, 395 US 711, 23 L. Ed
2d 656, 89 S. Ct. 2072
5. Brady Claim, as holding exculpatory evidence that could make
a difference in the outcome of proceedings as allocuted in Brady
v. Maryland (1963) 373 US 83, 10 L. Ed 2d 215, 83 S. Ct 1194, the
Supreme Court held that suppression of evidence favorable to the
requested by an accused violates Due Process Clause of the
Fourteenth Amendment. The Government with held the recording between
Amber Martin and Ellis that attested and proved what Amner Martin
woudl be receiving moneis from Ellis' daughter for, merely for
Martin bringing Ellis' commmission to pay for daughter's overdue
college tuition, and NOT for witness retaliation or a Murder for hire.
Nothing More.
The government withheld Faretta Hearing transcripts from the hearing
where Ellis is on the record attesting to the IAC and her concerns
of attorney not putting on a defense. This would have made a diff­
erence in the outcome of the Appeal had the Government released
the transcripts, but did not until after the decision of the
Eleventh Circuit court of appeals. See transcript of instant
case docket in the Middle District of FLorida, which verifies
when tehy finally released the Faretta Memorandum and not the
actual transcripts.
Release of the recordsings, release of the Faretta transcripts,
could have changed the outcome of the proceedings , both the Trial
and the Appeal. This prejudiced Ellis and violated Ellis Due
Process rights of the 14th Amendment of the United States Const.
6. A District COurt may not increase a sentence, see United States
v. Benz (1931) 282 U3 304, 75 L. Ed, 51 S. Ct 113 to be based
upon the ground that to increase the penalty is to subject the
Defendant to Double Jeopardy for the same offense, dissenting
Opinion of Holmes, J in Kepner v. United States (1904) 195 US 100,
49 LED 114, 24 S Ct 797, discussed Supra 113.
AUSA Patrick Scruggs requested that the Federal Bureau of Prisons
add a SAM ( special Administrative Measure ) to her final sentence
19 months after the sentece had started and final sentence occurred.
In Hill v. Wampler, the United States Supreme Court states that
a Judge knows what he wants in his final sentence and no one can
change that.
A:SAM was not a part of Ellis' final sentence in this
case and the AUSA fraudulently falsified anJalleged statement of
which Ellis was not convicted for nor taken to trial for disparaging
Ellis .
The AUSA had no right to request that ithe Assistant
Regional Director for the Federal Bureau of Prisons change
Ellis' final sentence without granting Ellis Due Process or an
attorney, as every defendant is entitled to an attorney through
§Y@gy phase of a sentencing, but Ellis was told after the fact

Page 3

that if Ellis had questions pertaining to the SAM to contact an
attorney. "that was nice of them, after violating Due Process".
Duplicate allegations evidenced by attached sentencing transcripts
reveal that Ellis, Priscilla received excessive 8th Amendment
enhancements unwarranted, violating the 5th, 8th and 14th
and 13th Amendments of the United States Constitution. A sentence
is suppose to be based on accurate , factual information.
see Apprendi v. New Jersey, 530 U.S. 466, 147 L. Ed. 2d 435, 120
S. Ct 2348 (2000).
Ellis was also see sentencing transcripts prejudiced by being
sentenced in case 8:15-cr-00320-sdm-tgw-3 for the case of
8:16-cr-00502-JSM-TBM-l before the actual sentencing for the
8:16-cr-00502-JSM-TBM-l.
See the allegatiosn and disparaging comments from both the
Judge and Prosecutor in case 8:15-cr-00320-SDM-TGW-3 that mainly
had to do witht he allegations surrounding case 8:16-cr-00502-SDM
TBM-1.
“
I was suppose to be getting sentenced for Conspiracy to money
laundering and Wire fraud conspiracy in-case 8:15-cr-00320-SDM-TGW-3
but as you see from looking at both sentencing transcripts, they
are identical in the allegations and comments and enhancement
information. Violating Ellis' Due Process 14th and 5th Amendment
rights under the United States Constitution .
Ellis meets all of the prongs in Barker v. Wingo, 407 U.S. 518,
33 L. Ed 2d 101 92 S. Ct 2182 (1982) Due Process right.
Also United States sentencing guidelines 18 USC 3553 mirror that
all information that a sentence is based upon should be Accurate
and factual and not false allegations as they did in Ellis,
Priscilla's case as evidence by both enclosed sentencing transcripts
Ellis was never convicted nor indicted of trying to kill a
9 year old girl, yet both prosecutors in case 8:15-cr-00320SDM-TGW-3 to include the Judge using the prejudice remarks as
again evidenced by the attached sentencing transcripts. This
prejudiced Ellis and violated her Due Process rights and 6th Amend
ment guarantee of fair and impartial proceedings.
The Prosecutor made the same disparaging remarks of Ellis trying
to kill a 9 year old girl at the sentencing in case 8:16-cr-00502JSM-TBM-1 , again Ellis was not indicted nor convicted for such.
It was bad enoigh that the Prosecutors were spewing out allegations
at both sentencings, but as evidenced by the transcripts to have
a Chief Judge use this same alleged language and behaviour was
baffling and astonishing and goes hand in hand that Ellis was
entrapped for a crime in which she had no intentions to commit.
To top that off to receive 2 life sentences for less then $135,000
goign unknowing as bad funds through Ellis account approved by her
Business attorney and because Ellis was advocating for innicense
as a victim, to be extradited to a venue that is not your home
state, to not receive a Bond, so you miss your daughter's graduation,
page 4

Ellis lost her businesses and home that was secured with her Veteran
Benefits Loan that she built in 2008, and to top it off to be
in the County Jail awaiting a sentence and be entrapped and
receive a Duplicate Life sentence for a non violent crime
(WHITE COLLAR ) crime adn the Judge makes the comments that he
want to make it tantamount to " A death Penalty". This
is both prejudice and over intense.
The Judge made this comment to no one else, The Judge presentenced Ellis before her own sentencing Judge could sentence
her for the crime in case 8:16-cr-00502-JSM-TBM-1 as evidenced
by the comments that the Judge and Prosecutor both used in
the sentencing attached transcripts in case 8:15-cr-00320-SDM-TGW-3
For this reason mainly, Ellis sentence and conviction needs to
be thrown out and vacated and a new trial requested and new
Venue.
See United states v. England, 555 F. 3d 616, 622 (7th Cir 2009)
When a defendant is exposed to GREATER or additional Punishments,
it may raise serious Constitutional Concerns, id at 88, 91 L. Ed
2d 67, 106 S. Ct. 2411.... APPRENDI v. NEW JERSEY 147 LED 2d 435,
530 U.S. 466
Which is what happened when the AUSA requested that the FBOP
enhance Ellis' Final sentence 19 months later with an Unlawfully
Applied SAM ( Special Administrative Measure) that was not a
part of Ellis' Final sentence.
THe Middle District of Florida AUSA Scruggs prejudiced Ellis
and violated Ellis' Due Process rights of 14th Amendment and
Double Jeopardy , a violation of the Fift Amendment of the
United States Constitution as well as Ellis' 1st Amendment
rights by requesting that the FBOP throw Ellis into a SuperMax
Prison for the World's most dangerous prisoners when Ellis is
serving a sentence for a White Collar crime in case 8:15-cr-00320SDM-TGW-3 but used a sentence that is consecutive to it in
case 8:16-cr-00502-JSM_TBM-1 that does not start!for another
36 years, using false allegations.
The Supreme Court holds that in the Legal sense a prosecution
terminates only when sentence is imposed__ see Bradley v. U.S. 410,
U.s. 605, 609 93 S. Ct 1151, 1154 35 L. Ed. 2d 528 (1973) So once
Ellis was sentenced, there was no reason for the AUSA from the
Middle District of Florida to request that the Federal Bureau of
Prisons increase/enhance the Final sentence 19 months later by
adding the unlawful SAM ( Special Administrative Measure ),
In addition in Pollard v. U.S. 352 U.S 354, 361, 77 S. Ct. 481, 485
1 L. Ed. 2d.393 (1957) the court assumed without deciding that
sentencing is a part of the trial for purposes of the Sixth
Amendment of the United States Constitution, Numerous Circuits
have followed the Supreme Court's lead and made the same
assumptions.
Page 5

Some have read the Supreme Court's actual holding as being limited
to cases in which delay was purposeful or oppressive as in Ellis,
Priscilla's case.
AUSA SCruggs waited 19 months after the Final sentence and Ellis
reassigned to the Prison at FMC-Carswell to Program in the LCP
Program prior to requesting as evidenced from attached
Grievance response from the Unit Manager at FMC-Carswell,
violating Ellis' 14th Amendment ( Due Process) and Fifth Amendment
(Double Jeopardy), First Amendment ( Civil Liberties),
Thirteenth Amendment, for using false allegations to disparage
Ellis in the write up to request the SAM, and Sixth Amendment
(ellis is entitled to an attorney through every phase of a
sentence.
The Supreme Court is bound to observe the directive of Rule
32 (a) (1), Fed R. Cr. P that sentence shall be imposed without
unreasonable delay. We all know that 19 months later to
ehance a sentence causing Double Jeopardy with a SAM is totally
un reasonable and prejudice.
Ellis meet All of the Barker Test in Barker v Wingo 407, U.S.
514, 92 S. Ct 2182, 33 L. Ed 2d 101 (1972)
1. The length of the delay was unreasonable
19 months after Final sentence to add the SAM enhancement
2. The reason for the delay --So that AUSA Patrick Scruggs
could continue to prejudice Ellis becasue Ellis was asserting
her innocense as a victim the entire time and still does
3. Prejudices and anxiety that the delay caused ---- They have
prevented Ellis from speaking with her younger daughter with no
criminal history and family an friends causing depression and
mental stress and anxiety with mental pain
4. Cruel, and unusual punishment, as Ellis requested a Speedy
Trial from the onset at the initial Appearance
see 407 U.S. at 530, 92 S. Ct at 2191
To throw Ellis, Priscilla in with a death Row inmate is another
form of Cruel and unusal punishment and prejudice as Ellis has
killed no one, and still have to see her family thorugh a Glass
window in a small booth as though she is on death row. This
is Cruel and Unusual Punishment on top of the already prejudices
and cruelties that Ellis have faced in this case and the
previous as evident by the sentencing transcripts.
7. Ellis was.prejudiced by not being taken to trial before a
Jury of her peers, although she requested at the onset for
Professionals and Black people as well as military to be on
her Jury. None was granted .
Ellis is an Honorable Discharged
Army Veteran and was a professional Business Owner for almost 25
years and a Black lady, which is why she received so many
disparities in her case that a White woman would have never faced.

Page 6

In Strauder v. West Virginia, 100 U.S. 303, 309, 25 L. Ed 664 (1880)
The Constitution promises fundamental protection of Life and
Liberty against race or color prejudice, also see McClesky v. Kemp
481 U.S. 279 310, 107 S. Ct 1756, 95 L. Ed 2d 262 (1987). There
was solely one young mixed race lady perhaps in her early
20's and was surely not a Peer of Ellis.
With all of the Black people in the Tampa, Flroida area, surely
they could have conjured a Jury of Ellis' Peers but for their
prejudice towards Ellis because they know that they had entrapped
Ellis for a caser that she did not commit.
There is a strong evidence that the promise of a Sixth Amendment
right to an impartial trail before an impartial Jury went unfulfilled.
The danger of race determining any criminal punishment can also be
an endangerment to the PublicYs confidence in the law , as is
clear from all of teh discrepancies in Ellis case and sentencing
see Buck v. Davis, 580 US ____ ._____ , 137, S Ct. 759, 197, L. Ed.
2dl, also Turner v. Murray 476 U.S. 28, 35, 106 S. Ct 1683, 90 L. Ed
2d 27 (1986) The work of purging racial prejudice from the
Administration of Justice id at____ 137 S. Ct 855, 197, L. Ed. 2d, 107
at 122 is far from done, especially whem there is no over sight and
the Prosecutors and Judges think that they can do whatever they
Please when a defendant does not know the law or have anyone to
seriously assist and have their best interest at heart.
also see Miller
El v. Dretke ( Miller - El II) 545, U.S. , 231
240, 125 S. Ct. 2317, 162 L. Ed 2d 196 (2005)
8. Ellis rights were violated under Miranda v. Arizona when
under cover inmate informant was recording Ellis while still at
the County Jail unbeknowing to Ellsi that she was entrapping her
for a crime of Witness retaliation with her questions that she was
asking, although Ellis gave her nothign but circumstantial responses,
Ellis was prejudiced when the Prosecutors took excerpts of the
recording and played in Open court without taking Ellis rights
into consideration that Ellis was still under Miranda, and had
never left the County Jail since her arrest in 2015 awaiting Trial.
9. According to 18 USC 3553, a sentence is based upon several
1. To rehabilitate a person: Ellis is educated , honorable
-discharged Army Veteran and was a professional Business Owner
and home owner with a family.
Now Ellis sits around doing religious correspondence and waste
tax payers dollars and her life away for a crime that she was
not a willing participant in the first place and the only
evidence was from perjured testimony of inmates.
Ellis receiving an excessive 65 years sentence on top of the
already life sentence at her age of excessive sentence of 40 years
for conspiracy to money laundering and wire fraud in which Ellis
trusted her business attorney in good faith violates her Eighth
Amendment rights for a Cruel and unusual punishment, as Ellis did
not kill anyone , nor have any drugs, so why is she serving an
excessive sentence of 105 years? See Gall v. United States 552
U.s. 38, 51. 128 S. Ct 586, 169 L. Ed 2d 445 (2207)
Page 7

and again in Apprendi v. New Jersey 147 L. Ed 2d 435, 530 U.S. 466
This sentence was greater then what should have been given Ellis'
Age and prior criminal record of no violence.
Graham v. Florida U.S. 48, 69, 130 S. Ct 2011, 176 L. Ed 2d 825 ■
(2010) (quoting Kennedy V. Louisiana, 554 U.S. at 438 explaining
THAT A NON HOMICIDAL CRIME CANNOT BE COMPARED to Murder in their
severity - Ellis senteced was treated as though she had committed
a Murder and was and is excessive .. see U.S. v. McDonald, 981
F. Supp 942 (D.MD 1997)
then.19 months later the AUSA in the Middle District of Florida
continues to follow Ellis around and prejudoice her by again
requesting that a SAM be added on top of the already excessive
NON violent sentence, all 3 sentences using the same identical
information for enhancements and same false allegations.
Violation of Due Process, 14th adn 5th and 6th amendments as well
as the 13th Amendment for disparaging remarks.
10. Ellis shoudl have received a change of Venue in the instant
case evidence by the prejudice remarks from the Judge in the
sentencing transcripts of enclosed 8:15-cr-00320-SDM-TYGW-3, when
a Judge makes the remarks of allegations that Ellis had tried to
kill a 9 year odl , when Ellis was not indicted, nor convicted of
such and when the Judge says that he wants to sentence Ellis
SHORT of the DEATH Penalty , for a white collar crime of less
then $135,000 goign through Ellis' Vicken International Traders
LLC account in a State not connceted to Florida, ( In which
FLorida had no venue from the inception) lets you know as again
n°t ffabricated but proven by the enclosed sentence transcripts
that the Judge was prejudice against Ellis and being the Chief
Judge of this courthouse, the Venue should have been changed to
a different Venue..
11. Again as evidence by both attached sentenced transcripts
8:15-cr-00320-SDM-TGW-3 and 8:16-cr-00502-JSM-TBM-1 and the
SAM ( Special Administrative Measure) Agreement, Ellis was
sentenced 3 times for case 8:16-cr-00502-JSM-TBM-1 and violating
her 14th amendment rights and 6th and 5th Amendment rights
12. Ellis shoudl have not been convicted of Interstate Commerce
facilites in commission of Murder for Hire, as No funds crossed
state lines from Florida to Texas, there is no telephone recording
of Ellis telling anyone to commit a crime in Texas from Florida
nor did the Prosecution provide proof of such.
13. Attached by the Transcripts from FBI Rolf Gerjsten, he attest
under cross examination that ther eis not recording of Ellis
telling her daughter to pay for a murder for hire, so why.did
the court allow the faulty indictment based on false perjured
statements and signature of FBI perjuring himself under oath?
This caused Ellis to be taken to trial and falsely convicted
for a crime that she did not commit, and causing Ellis to not be
able to communicate with her Baby daughter whom have No criminal
history. ^Ellis has been prejudiced time and time again in this
§utethp1trlnl^?^ot20
Tuchjtoprove
even that
£riP Ellis
Y?Vir hands
or believe
out the transcripts enclosed
tellingaround
the truth/
8

Page 8

14. Ellis has been again prejudiced by the Federal Bureau of
Prisons changing her sentences from Consecutive to an Aggregate
sentence without Ellis being taken back before a Judge or getting
credit for serving Concurrent sentences. See Hill v. Wampler
as the Supreme Court states that a sentencing Judge knows what
they want in their final sentence. The FBOP is not a part of
the criminal justice system and should not be combining sentences
see Dress v. D.O.C, 168 wn. App, 319, 279 P. 3d, 875 (2012)
This again violated Ellis'' Due Process and Fifth AMendment , 14th
and 6th Amendment rights of the United States Constitution.
15. Ellis was prejudiced by being convicted on mainly perjured
testimony from under cover inmates and as evidenced by attached
trasncripts from the FBI Agent Rolf Gerjsten, his testimony
attesting that ther eis no recording of Ellis telling her
daughter to pay for a Murder for hire, yet he went before a Grand
Jury lying and committing perjury that there was when there is
definitely NOT.
16. Ellis 6th AMendment rights were violateed when her defense
attorney did not tell her to testify adn the magnitude of the
sentence that she was facing if found guilty in this case
17. Ellis was prejudiced by not receiving her Speedy Trial that
she requested at the initial appearance per 18 USC 3161. and
again Speedy Trial violated when they Judge allowed a Superseding
indictment over 60 days later adding additional charge using
exact same check templates used to take Ellis to trial in case
8:15-cr-00320-SDM-TGW-3 which belonged to independent Agent.
In United States v. Palomba, the case was thrown out because of
the Superseding indictment being over 30 days.
18. Ellis continues to be violated and excessively punished,
serving a sentence for a White collar crime in case 8:15-cr00320-SDM-TGW-3, Ellis sits here in a Supermax prison because of
the request of the AUSA in the Middle District of Florida, when
Ellis has CLEAR Conduct since being within the FBOP and have low
security, yet am here on a SuperMAX prison with a lady on DEATH
row and have to see my family through a glass window, and have
limited contact to call my family. 3 phoen call s per month. They
are treating me as though I have killed someone and have not, and
have been advocating for my freedom as a victim and this angered the
Prosecutor as he has followed me around 19 months later after final
sentence violating Ellis' 5th, 14th and 6th Amendement and 13th
Amendemnt rights by requesting that the FBOP put me in SuperMAX
Prison and add the excessive SAM measure. SuperMAX is for the
World's most dangerous prisoners, Ellis, has no Violent history
and continues to be prejudiced. Ellis receives 3 phoen calls per month
to her family solely, for a conspiracy of Money Laundering and
Wire Fraud. You clearly see that the Judge sentenced Ellis in
Case_8:15-cr-00320-SDM-TGW-3 fro the case 8:16-cr-00502-JSM TBM-1
by his remarsk, of a Maximum Security Prison and not to be Tn
my home state of Texas where I have owned my homes and businesses
since 1994, s a military transplant to Fort Hood with my spouse
Page 9

REASON THAT RELIEF SHOULD BE GRANTED

1.

Faretta Transcripts Not Released

Had the Middle District of Flroida released the transcripts from
the Faretta hearing, it would have proven the facts that were
in the original Appeal 17-12737 where Petitioner was asserting her
This was a Brady
Claims of ineffective assistance of Counsel.
Claim see Brady v. U.S. 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed 215,
see Federal R. Crim P 16, 26.2 and also see Myers v. Johnson
76 F. 3d 1330 (CA 5 1996) in which a writ was granted because of
the same circumstances and issues surrounding petitioner's case.
Petitioner as a Pro-Se' Litigant after her trial because of IAC
shoudl have been allowed to haev the sufficiency of the evidence
to assist in assertign her claims. The Petitioner went on the
record at the Faretta hearing to assert her claims of IAC and
the original Appeal filed by the Petitioner in a timely manner
v erifies the same assertions that were made on the record.
Based upon the original Appeal and the memorandum of transcripts
from the Faretta Hearing the Eleventh Circuit Court of Appeals
should have allowed Petitioner's original Appeal to take precedent
Appeal 17-12737 and not the Petitioner's standby attorney's
Appeal of 18-10075. No one has the right to interfere with a
Pro-Se' litigant's filings and the Panel of Judges should have
elaborated on the claims of the Petitioner Ellis and not the
filings of the satndby Attorney. This prejudiced the petitioner,
further.
2.

Exculpatory Evidence

The Government prejudiced Petitioner by witholding a recording that
would have cleared Ellis of the crime of Witness Retaliation.
The United States Government had a recording from the Pinellas
County Jail that told daughter to give monies to Amber Martin
solely for deliveringmonies to Petitioner's daughter to pay for
her past due college tuition. Had the Government played this
recording in Court, I am sure that the outcome of the Jury would
have been different . In re Oliver , 333 U.S. 257 68 S. Ct 499,
92 L. Ed. 682 (1948) to describe what is regarded as the most
basic ingredients of Due Process of Law. The right to offer
testimony of witnesses. Petitioner supplied Attorney more then
10 statements as attached to Appeal doc# 85 enclosed stating that
under cover hired inmate informants were bragging that the Government
Agent had hired and offered tog ive them time off of their sentence
to entrap Petitiner for a crime in which she did not nor have any
intentions to commit.
Had the recording been played and individual witnesses been called
for Certain, Petitioner's innocense would have been proven and
the chance of the outcome from the Jury would have been different.

X5J&

10

(The Judgement of Conviction must be reversed)
3.

IAC in original Appeal attached

See Washington v. State of Texas, 388 U.S. 14, 18 L. Ed 2d,
1029, 87 S. Ct 1920 (1967) when attorney did not call witnesses
he denied the petitioner the right of a defense, denied petitioner
a fair trial, Due Process, Complulsory process and Sixth Amendment
Guarantees. See Davis v. Alaska, 415 U.S. 311, 39 L. Ed 2d 347
94 S. Ct 1105 (1974). Petitioner had a right to a complete defense
which would have included callign witnesses on her behalf, which
was part of the Faretta hearign record. see Crane v. Kentucky
476 U.S. 683, 690, 1106 S. Ct 2142 (1984), Harris v. Reed, 894
F. 2d 871, 878 (7th Cir 1990) and Pavel v. Hollins 261 F. 3d 210
(CA 2 , 2001) where counsel failed to prepare a defense and call
witnesses the Convictionwas VACATED and reversed as relevant by
the laws under Strickland v. Washington, 466 U.S. 668 (1984)
Strickland, itself teaches that there are times when prejudice
is presumed as evident in Petitioner's case 466 U.S. at 692, 104
S. Ct 2052, Granted instances of resumed prejudices are rare, but
several are well established when a Counsel does not put on
a defense he has failed to function as the Client's advocate when
he does not call witness or prepare a defense, but instead rely
solely on the under cover inmate that entrapped his client's husband
to come testify to his wife's deceit of entrapping Petitioner, but
the husband of the undercover inmate never showed up. Nor did the
Defense attorney play the recording that his investigator played for
the petitiner verifying that Petitiner was merely paying for
monies to be delivered to pay for past due college tuition of
younger daughter, not a Murder for Hire or Witness retaliation.
4.

Appellate COurt Errored by Not considering Pro-Se Appeal

Appellate Court errored and prejudiced Petitioner by not including
nor elaborating on petitioner's original Appeal 17-12737 atatched
see Myers v. Johnson, 76 F. 3d 1330 (CA 5 1996). Petitiner's Appeal
should have taken predent over Standby attorney's appeal 18-10075
The Fifth Circuit reversed the decsion and remanded back to the
courts.
Eleventh Circuit did not consider Petitioner's Appeal 17-12737
at all, nor did the Middle District of FLroida release the Faretta
transcript to confirm that petitioner is on the record asserting
the claims of IAC and putting on the record the reasons that she
thought that it was best for her to start representing herself
because of the insufficiency of her defense attorney.
When a petitioner shows total in effective assistance of Counsel
Petitioner need to show no further constitutional violations or
prejudices see U.S v. Teague, 953 F. 2d 1525 ( CA 11 1992) and
Henry v. Mississippi, 379 U.S. 443, 85 S. Ct 564, 13 L. Ed 2d 408
(1965) and Gallego v. US 174 F. 3d 1196 ( CA 11 1999) and Jordan
v. Hargett, 34 F. 3d 310 ( CA 5 1994) Petitiner's case should be
vacated and remanded back to the Middle District of Florida for
New trial

XBSK 11

5.

FBOP Forcing Petitioner to serve Double Jeopardy Sentence

THe AUSA from the Middle District of Florida 19 months into the
Petitioner's final sentence Judgement, and after the Petitioner had
already started serving her sentence, demanded that the FBOP
submit a false allegation write up denying Petitioner Due Process
to request a SAM ( Special Administrative Measure) and to combine
petitoner's sentences as aggregate that were ordered Consecutive
by both District Judges. This cause Petitioner to be serving
a Double Jeopardy sentence as evidenced by attached Computation
sheets. The FBOP at the request of the prejudice AUSA, made
the Consecutive sentence that does not start fro another 36 years
if not over turned on appeal as the controlling sentence.
18 USC 3553 states that a sentence should be based upon accurate
information and not alleged information. The information that
was utilized to obtain the SAM are all false allegations that the
Petitioner was not indicted nor sentenced for violating the
Petitioners Due Process 14th Amendment and 5th amendment rights
under the United States Constitution.
Fifth AMendment guarantees against Double Jeopardy , and alo
enforceable through the Fourteenth Amendment, consists of three
separate constitutional protections:
(l) protections against a second prosecution for same offense
after acquittal (2) protections against second prosecution for
same offense after conviction; and (3) protection against multiple
punishments for same offense. North Carolina v. Pearce, 395 US
711, 23 L. Ed 2d 656, 89 S. Ct
Evidence to convict defendant for witness retaliation was
insufficient where the only co conspirators were government agents
or under cover inmate informants hired by the government to receive
tiem off of their sentences by offering perjured testimony.
United STates v. Anderson (1993, CA9 WASH) 989 F. 2d 310, 93
CDOS 2109, 93 Daily Journal DAR 3739 ( criticized in United States
v. Malloy ( 2009, ND Iowa) 2009 US Dist LEXIS 54089
THus Based upon Brady v. Maryland (1963( 373 US 83, 10 L. Ed 2d
215, 83 S Ct 1194, The Supreme Court held that suppression of evid­
ence favorable to the requested and accused violates the Due Process
Clause , which is what the Middle District of FLorida did by not
releasing the Faretta hearing transcripts and the tapes that could
have assisted in proving the Petitioner's innocense and claims
of IAC and resons for the IAC, as evidenced from attache d
statement on the orignal attached appeal.
For above reasons and FRCP 52 (b) and for the interest of the
Public, Petitioner request that this honorable Court use it's
supervisory Poweres to vacate the current sentence and remand
back to the Middle District of Flroida for New Trial.
XMXX

12

REASONS FOR GRANTING THE PETITION
Eleventh Circuit COurt of Appeals errored by not taking Ellis'
initial Appeal docs #85 into consideration before the Panel Judges
Ellis had Ineffective assistance of Counsel for not putting on a defense
and for not calling the main witnesses Victoria Ellis and Martin
to testify
Ellis was till under Miranda when the under cover jail informant's
wore a wire inside the jail to entrap Ellis for the crime of
Witness retaliation
Composition of the Jury, as a black woman, Ellis had only 1 Black person
Prejudiced by Prosecutor testifying before the Jury of how great
Ellis attorney is
.Ellis did not have a fair trial and was clearly entrapped and all
of the evidence shows including what the eleventh circuit court of
Appeals has done to day by not granting Ellis a re-hearirig when
they NEVER took any of Ellis concerns into consideration from the
beginning in Ellis' initial Appeal.
Ellis has been prejudicied from the beginning to now, and to date
still does not have a Counsel.
Please Appoint Counsel
THE JUDGE ERRORED IN BOTH CASES BY ALLOWING THE PROSECUTORS TO EACH
USE SAME INFORMATION (false allegations ) TO OBTAIN SENTENCE
ENHANCEMENTS OF ELLIS TRYIGN TO KILL A 9 YEAR OLD GIRL WHEN ELLIS
WAS NOT INDICTED NOR TAKEN TO TRIAL FOR THIS, SEE ATTACHED TRANSCRIPTS
FROM BOTH SENTENCING HEARINGS
DISTRICT JUDGE ERRORED BY ALLOWING PROSECUTOR GERARD TO ADD ODUS
OMOTOLA FROM THE FIRST CASE AS A 5th PERSON TO PROVIDE A CONTROLLING
ROLE ENHANCEMENT, WHEN OMOTOAL HAD ABSOLUTELY NOTHING TO DO WITH THE
INSTANT CASE AND THERE WAS NO EVIDENCE TO SHOW SUCH AS ELLIS HAD
NOT SPOKEN TO OMOTOLA SINCE MAY 2015
PREJUDICED BY MIDDLE DISTRICT OF FLORIDA APPLYING A SAM ORDER
SENTENCE ENHANCEMENT TO ELLIS SENTENCE 19 months AFTER ELLIS FINAL
SENTENCE VIOLATING 18 U.S .C 3582 4/V fifth A-r*
BASED ON THE COMMENTS FROM JUDGE MERRYDAY OF ELLIS NOT GETTING RELIEF
FROM HIS FRIENDS AT THE 11TH CIRCUIT COURT OF APPEALS, ELLIS WAS
PREJUDICED BY THE MIDDLE DISTRICT COURT NOT ALLOWING HER TO CHANGE
VENUE FOR TRIAL. ( see attached transcript with judge's comments)

13

>k

REASONS FOR GRANTING THE PETITION
Federal Rule of Criminal Procedure 52(b) provides that a plain error
that affects substantial rights may be considered even though it was not
brought to the District Court's attention. In United States v. Olano,
507 U.S. 725, 113 S. Ct 1770, 123 L. Ed 2d 508 (1993), the court
established three conditions that must be met before a court may consider
exercising it's discretion to correct the error.
1. There must be an error that has not been intentionally relinquised
or abandoned. 2. The error must be plain--that is to say clear and
obvious. 3. The error must have affected the defendat's substantial
(slip op., at 4) ( citations
rights. Molina-Martinez, 578 U.S. at
omitted). To satisfy the third condition, the defendant must show a
reasonable probability that but for the error, the outcome would have
been different in the proceeding I bid quoting United States v. Dominguez
Benitez, 542 U.S. 74, 76, 82, 124 S. Ct 2333, 159 L. Ed.2d 157 (2004).
Once these three conditions have been met, the court of Appeals should
exercise it's discretion to correct the forfeited error if the error
seriously affected the fairness, integrity or public reputation of
judicial proceedings. Molina-Martinez, 578 U.S. at ____ (slip op at
4-5) (internal quotations omitted) It is the last consideration , often
called Olano's forth prong that is clarified in Ellis case. Had
teh District court released the Faretta transcripts tot he Appellate
Court to evidence that Ellis was on the record asserting her ineffective
assistance of Counsel claim, and had they released the recorded
telephone conversation at trial thent he outcome at both the trial and
the Appellate Hearing been different.
Thus in Brady v. Maryland (1963) 373 US 83, 10 L. ED 2d 215, 83 S Ct
1194, the Supreme Court held that suppression of evidence favorable
to and requested by an accused violates the Due Process clause of the
Fourteenth Amendment where the evidence is material either to guilt
or to punishment, irrespective of the good faith or bad faith of the
prosecution. In Elis case it stands in close proximiny with the
Supreme Court's ruling in Mooney v. Holohan (1935) 294 US 103, 79
L. ED 791, 55 S. Ct 340, 98 ALR 406 in which a State's deliberate
presentation of perjured testimony to procure a conviction violates
Due process, this happened in Ellis' case as well as Ellis was taken to
trial twice for the same counterfeit checks that she was convicted
for in case 8:15-cr-00320-SDM-TGW-3 , violating Double Jeopardy under
the Fifth Amendment of the United States Constitution see North Carolina
v. Pearce, 395 US 711, 23 L. Ed 2d 656, 89 S. Ct, as No one individual
should be taken to trial twice for the same convicted offense, nor
sghall any one individual be punished twice or multiple times for the
same offense. Because of the multiple injustices in Ellis' trial,
Appeal and sentencing, it is in the Public's interest as well as other
accused for the US supreme Court to remand this case back to the
Middle District of Florida for a new trial and or vacate the sentence
that was imposed, which is a violation of the 8th Amendment of the
United Sattes Constitution as Cruel and excessive punishments.
The Public's interest and again other accused's are relying on the
outcome of this case.
14

REASONS FOR GRANTING RELIEF

PAGE 1 A

Federal Rule of Criminal Procedure 52(b) provides that a court of
appeals may consider errors that are plain and affect substantial
rights, even though they are plain and raised for the first time
on appeal.

This case concerns the bounds of that discretion,

deliberate violations of the 1st, 5th, 6th, 8th, and 14th Amendments
of the United States Constitution and whether a miscalculation of
the United States Sentencing Guidelines range that has been
determined to be plain and to affect a defendant's substantial rights,
calls for a court of appeals to exercise its discretion under rule
52(b) to vacate the defendant's sentence.

Such an error will in the

ordinary case; as here affect the fairness, integrity, or public
reputation of judicial proceedings and thus will warrant relief.
District Courts must

determine in each case what constitutes a

sentence that is sufficient, butnot greater then necessary,

65 years

consecutive to a 40 year sentence is way greater then necessary to
achieve the overarching sentencing purposes of retribution, deterrence,
incapacitation, and rehabilitation.

Tapoa v. United States, 564 U.S

319, 325, 131 S. Ct 2382, 180 L.Ed.2d 357 (2011) 18 U.S.C. 3551 (a)
3553(a)(2).

Those decisions call for the District Court to

exercise discretion, yet to ensure certainty and fairness in
sentencing, district courts must operate within the framework
established by COngress.

United States v. Booker, 543 U.S. 220, 264,

125 S. Ct. 738, 160 L. Ed.2d 621 (2005) quoting 28 U.S.C 991(b)(1)(B)
Peugh v. United States, 569 U.S. 530, 541, 133 S. Ct 2072, 186 L. Ed.
2d 84 (2013) quoting Gall v. United States, 552 U.S. 38,50,n.6, 128
S. Ct 586, 169 L. Ed. 2d 445 (2007) through process of Appellate Review.
15

REASONS FOR GRANTING RELIEF CONTINUED

PAGE 2

It is a Public's interest and detrimental to provide relief as this
issue pertains to all US Citizens whom are protected under the 5th
Amendment of the United States Constitution,

If the Prosecutors

are allowed after final sentencing to change/modify or alter a final
sentenceing judgement or final judgement period at anytime that
they deem fit, this would put all Citizens and the Justice system in
jeopardy as being a fair, equal, and impartial system as we all know
it to be.

The AUSA in the Middle District of Florida requested the

FBOP to Add a SAM ( Special Administrative Measure ) 19 months
after Ellis' Final sentence had commenced with CLEAR Conduct, violating
Ellis' Fifth Amendment Rights and causing a Double Jeopardy sentence.
THe Fifth Amendment states that a person should not be sentenced
twice or taken to Trial for the same crime twice, but the Middle
District of FLorida also used the same information

( check

Templates ) from case 8:15-cr-00320-SDM-TGW-3 to take Ellis to
Trial for Uttering a Counterfeit document in case 8:16-cr-00502JSM-TBM-1 when Ellis was incarcerated in the Pinellas County Jail
already for beign a victim with the same templates,

See attached

copy of statement from the Unit Manager at the Federal Bureau of
Prisons

attesting to the Middle Dist of Florida Prosecutor

requesting that the FBOP add a SAM that was not a part of final
sentence.
Both of these situations constitute Double Jeopardy and a
Violation of the fifth Amendements of the US Constitution as
well as 1st, 5th, 6th, 8th, and 14th Amendement of the United States
Constitution violations.
This case is important to the interest of the Public and other
Inmates convicted as victims and entrapped for crimes such as
Ellis.
16

SUMMARY
As you can see errors by
the defense, see Anderson
1994) also see Strickland
States v. Ackenlen, 47 F.

Counsel actually had an adverse effect on
v. Collins, 18 F. 3d 1208, 1215 ( 5th Cir
v. Washington 466 U.S. 668 and United
3d 739 (5th and 11th Cir 1995).

This case is of such importance to justify the deviation from
normal Appellate practice and to require immeidate determination
in this court , The United States Supreme Court per 28 U.S.C 2101 (e)
Federal Rule of Criminal Procedure 52(b) provides that a court
of Appeals may consider errors that are plain and affect substantial
rights, even though they are plain and raised for the first time on
Appeal.
This case concerns the bounds of that discretions, and have deliberate
violations of the 1st, 5th, 6th, 8th, 13th and 14th Amendments of
the United States Constituion, and also request that you consider
whether a miscalculation of the sentencing guidelines were
excessive and if the AUSA in the Middle District of Florida violated
the Ex-Post facto law by asking that the FBOP add another excessive
sentence witht he SAM enhancement 19 months after final sentence.
Under FRCP 52 (b) The US Supreme court can vacate the current
conviction and sentence per the Constitutional excessive violations
and dispartities concerning other cases that are comparative to
Priscilla Ellis’ instant case.
See United States v. Booker, 543, U.S 220, 264. 125 S Ct. 738, 160 L.
Ed 2d 621 (2005) quoting 28 U.S.C 991 (b)(1)(B) Peugh v. United
States, 569 U.S 530, 541, 133 S. Ct 2072, 186 L. Ed. 2d 84 (2013)
quoting Gall v. United Staes, 552 U.S 38, 50, n.6, 128 S. Ct 586,
169 L Ed 2d 445 (2007) through process of Appellate Review.
It is o Public's interest and detrimental to provide relief as these
issues pertain to ALL citizens whom are protected under the 1st,5th,
6th, 8th, 13th and 14 Amendments of the United Staes Constitution.
For the ABove reasons, Priscilla Ellis
United States Supreme Court to deviate
practice, retain Jurisdiction under 28
relief by Vaccating the conviction and
back to the Middle District of Florida

iscilla A.Ellis, Pro-Se

17

Page

l

Date:

Preys upon this Honorable
from the Normal Appellate
U.S.C. 2101 (e) and provide
current sentence and remand
for New Trial.

4-22-2020

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully'submitted.
Priscilla A. Ellis- Pro-Se

Date:

6-/4'2-°

n

